                      Securities and Exchange
                           Commission

                             Office of Inspector General


                                         Executive Summary
During this reporting period (October 1, 2000 to March 31, 2001) the Office of Inspector
General (Office) issued seven audit reports, one investigative memorandum on management
issues, and one audit memorandum. These documents focused on disgorgements; the
Commission’s Integrity Programs; the Freedom of Information Act (FOIA) process; general
computer controls; the distribution of mail; administrative practices in the Central Regional
Office; the use of personal resources; and print shop supplies. The Audit Program section below
describes this work further.
Twelve investigations were closed during the period. Three subjects were referred to the
Commission; one case was referred to the Department of Justice. During the period, two
subjects referred during a prior period resigned. Eight subjects, referred to Commission
management during this and prior periods, are awaiting disposition. The Investigation Program
section below describes the significant cases further.
In this period, we are reporting controls over disgorgement1 waivers as a significant problem,
based on our audit. During the audit, the Division of Enforcement began taking actions to
improve the waiver process. It has issued written procedures, hired a firm to provide improved
databases, and hired a contractor to evaluate and make recommendations concerning its
procedures. We commend the Division on taking prompt action to strengthen the controls.
In a previous period, we also reported the custody of sensitive information as a significant
problem. Since then management has established a task force to implement corrective actions,
issued an agency-wide policy, and hired a consultant to assist in a comprehensive review of the
matter. The Commission recently received the consultant’s final report and recommendations.
The task force has identified the most significant recommendations, and the Commission has
begun implementing them. We recently began a follow-up audit on the controls over sensitive
information

1
    Disgorgements represent ill-gotten gains (or losses avoided) resulting from individuals violating the federal securities
     laws. The Commission seeks disgorgement to ensure that securities law violators do not profit from their illegal
     activity. When appropriate, the disgorged funds are returned to the injured investors.
                                                                                         Page           2

We also previously identified information resources management as a significant problem.
Although the Commission has taken many positive steps to improve the management of
information (e.g., integrating information technology planning, budgeting, and performance
measurement process, linking plans and budgets to the Commission’s mission and strategic
direction) information resources management, as a whole, remains a significant concern.
We believe that the Commission is making progress in the right direction (i.e., full compliance
with requirements of the Clinger-Cohen Act). However, many pending management actions
need to be completed to implement the operational, procedural, and policy recommendations
made in prior audits. We performed a review of general computer controls and a risk
assessment of information technology this period. We intend to maintain our oversight of the
Commission’s management of information resources (including performing a business process
review of the IT capital investment decision-making process).
Another previously reported significant problem involves lack of adequate controls over the
collection of fees. Since first reported, statutory changes have eliminated many of the fees most
at risk. Moreover, Commission management has made significant progress in correcting the
most serious weaknesses. However, final corrective actions are awaiting the implementation of
a new computerized filing fee collection system.
No management decisions were revised during the period. The Office of Inspector General
agrees with all significant management decisions regarding audit recommendations.



                                             Audit Program
The Office issued seven audit reports, one investigative memorandum on management issues,
and one audit memorandum during the reporting period. These documents contained a total of
74 recommendations, which are further described below. Management concurred with most of
the recommendations.


DISGORGEMENTS (AUDIT 311)
Disgorgements represent ill-gotten gains (or losses avoided) resulting from individuals violating
the federal securities laws. The Commission seeks disgorgement to ensure that securities law
violators do not profit from their illegal activity. When appropriate, the disgorged funds are
returned to the injured investors.
Disgorgements can be ordered in either administrative proceedings or civil actions, and the cases
can be settled or litigated. Payment of disgorgements can be either completely or partially
waived based on the defendant demonstrating an inability to pay.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                       AP R I L 3 0 , 2 0 0 1
                                                                                         Page           3

In settled administrative proceedings, Enforcement may recommend, if appropriate, that the
disgorgement be waived. The Commission makes the final decision. In civil actions, any
settlement agreed to by the Commission must be approved by the district court.
Our audit objectives were to determine if the management controls over waivers of
disgorgements and identification of investors in disgorgement plans were effective in achieving
their objectives and efficient. In addition, we determined compliance with Commission Rule
201.612(c) governing whether disgorgements are paid to the injured investors or the U.S.
Treasury.
We found that improvements could be made to the waiver process to achieve greater assurance
that waivers were justified. The Division of Enforcement concurred and, during the audit, began
taking actions with a view to improving the waiver process. It has issued written procedures
relating to the waiver process, hired a firm to provide improved databases, and hired a contractor
to help evaluate and make recommendations concerning its procedures.


INTEGRITY PROGRAMS (AUDIT NO. 313)
We evaluated the effectiveness of the Commission’s integrity programs (i.e., the ethics program
in the Office of General Counsel and Personnel’s staff conduct program). The review was a
follow-up to two audits performed in 1996-97 (Audit Nos. 250 and 267).
Successes, obstacles, recommendations, and effectiveness ratings related to the Commission’s
integrity objectives were obtained through twenty-two workshops involving approximately eight
per cent of Commission employees. Composite ratings were consistent with the previous audit
results. Indications are that all supporting objectives are generally being implemented. We
believe that, taken as a whole, the Commission is achieving its primary objective to promote
high individual and agency integrity.
With almost no exceptions, the workshop participants indicated that they felt a personal sense of
responsibility for maintaining the integrity of the Commission. There were no material control
weaknesses identified during the workshops. It is evident from all available evidence that
Commission employees place a high premium on ethical integrity.
The participants in the workshops made a number of comments and suggestions for
improvement. We shared many of them with management. We made two audit
recommendations to improve staff access to integrity guidance and to notify staff seeking ethics
counseling of confidentiality limitations.


FOIA PROCESS (AUDIT 318)
The Freedom of Information and Privacy Act Branch, in the Office of Filings and Information
Services (Branch), processes Freedom of Information Act (FOIA) requests for agency records.
The Branch includes approximately eighteen staff. It received 2,985 requests in FY 1999.
S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                       AP R I L 3 0 , 2 0 0 1
                                                                                         Page           4

The audit objective was to evaluate the Commission’s compliance with the Freedom of
Information Act in processing requests and determine whether processing improvements were
needed. We did not address the Privacy Act during this audit.
The Freedom of Information Act requests that we reviewed appeared to be processed generally
in compliance with the FOIA.
In FY 2000, the Branch continued its efforts to acquire a new tracking system for FOIA requests,
completed a new training manual for its staff, updated the Commission’s FOIA regulations, and
conducted a conference for Headquarters and field office FOIA liaisons.
Also, the Branch addressed several matters that we noted during the audit. We found that staff
passwords for the FOIA tracking system were provided in the users’ guide, a risk to the security
of the tracking system. The FOIA/PA Officer promptly had the passwords changed. Also, the
Officer coordinated with the Commission’s Webmaster to add a link on the Commission’s home
web page to its FOIA web page. In addition, the Officer requested the capability to run ad hoc
reports from the current FOIA tracking system. These actions demonstrate the Branch’s
commitment to enhancing its operations.
To further enhance FOIA request processing, we recommended that the Branch: notify
requesters of their appeal rights in responses indicating that no records were found; always notify
requesters when their requests will take longer than 20 business days to process: clarify language
in response letters; require fee agreement in initial FOIA requests; improve documentation of
searches and fees assessed; link information to the FOIA web page; and improve maintenance of
the FOIA request files.


GENERAL COMPUTER CONTROLS (AUDIT 320)
The Office of Inspector General sought to determine whether the general controls over the
information systems of the Commission's Office of Information Technology (OIT) were
effective. The OIG contracted with Tichenor & Associates, an independent CPA firm, to
perform a review of the general controls over information technology (IT) planning and
organization, data processing operations, physical and logical access to IT assets, program
change controls, and other data processing related activities.
The review disclosed that the general controls over information systems were generally effective
due to the Year 2000 (Y2K) moratorium on changes to the production environment and the
comprehensive review and clean up of information systems and technology associated with Y2K
compliance and certification efforts. However, while OIT has devoted much effort to improving
and aligning agency and information technology plans, re-structuring the OIT, improving staff
core competencies, and developing a comprehensive configuration management infrastructure,
significant improvements must be made for SEC to continue to rely on the general controls over
information systems. Specifically, improvements are needed in the areas of:


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                       AP R I L 3 0 , 2 0 0 1
                                                                                            Page           5

              •    Policies and procedures related to approval and implementation of configuration
                   change control;
              •    Policies and procedures related to OIT oversight of project deliverables;
              •    Segregation of duties between the systems software, configuration management,
                   user access administration, and production control functions;
              •    Security planning for controlling and administering user access to applications;
                   and
              •    Performance, problem and compliance reporting.


The report made recommendations to improve these areas. It found that OIT management was
aware of many of these conditions and had already implemented improvements in some areas.
However, OIT management acknowledged that they are still working on the evolving
configuration control structure and the required supporting policies, procedures and automated
tools.


DISTRIBUTION OF MAIL (AUDIT 324)
The General Services Administration (GSA) issued guidance to agencies on Federal Mail
Management (41 Code of Federal Regulations, 101-9). The guidance requires the agency head
to designate a mail manager.
Commission mail policies and procedures are described in the Mail Management regulation
(SECR 22-1). The Branch Chief of Publishing in the Office of Administrative and Personnel
Management is the Commission's mail manager. Approximately 15 staff and a supervisor
handle day-to-day distribution of mail in headquarters.
Our review of the distribution of mail found that it generally complied with applicable guidance
and was cost effective. We made several recommendations to enhance mail management,
including: considering additional automation; promoting efficient use of express mail methods;
issuing updated mail guidance; establishing a mail site on the Intranet; and providing additional
information to mail room staff.


GENERAL COMPUTER CONTROLS - REGIONS (AUDIT 327)
The OIG contracted with Tichenor & Associates, an independent CPA firm, to perform a review of the
general controls over data processing in the regions. The objective of the review was to determine
whether the controls are in place and effective, and can be relied upon by the OIG in assessing the
validity and reliability of data from SEC computer-based systems. The scope of the review
included both mainframe and server general controls.
Based on the review, Tichenor determined that the Office of Information Technology (OIT) has
devoted much effort to improving and aligning SEC information technology plans. However, it


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                          AP R I L 3 0 , 2 0 0 1
                                                                                           Page           6

identified further improvements, which must be made for the Commission to continue to rely on
the general controls. Specifically, improvements are needed in the areas of:
              •    Implementing technology with proper testing and approval;
              •    Communication between the OIT Technical Liaison and regional management on
                   information technology plans and issues;
              •    Development of regional IT-related procedures and automated processes;
              •    Increased reliance on the Help Desk for problem resolution by the regions; and
              •    Storage and retrieval of data stored on workstations.


OIT management was aware of many of these conditions and has already implemented
improvements in some areas.


CENTRAL REGIONAL OFFICE (AUDIT NO. 328)
The Central Regional Office exercises a broad range of financial and administrative functions,
including maintaining time and attendance records; procuring supplies and services; arranging
for staff travel; maintaining an inventory of property; and recording budgeted and actual
expenditures of the office.
The Office of Inspector General conducted a limited audit of the financial and administrative
internal controls of the office. The purpose of the audit was to provide the Commission with
negative assurance that the internal controls were adequate, being implemented economically
and efficiently, and in compliance with Commission polices and procedures. The audit
procedures were limited to analyzing representations made by staff, reviewing supporting
documentation, and conducting some tests of transactions.
During the limited audit described above, no material weaknesses in the internal control structure
involving financial and administrative functions came to our attention. Some minor problems
were verbally discussed with management. The office concurred with these findings and is
implementing our suggestions.


USE OF PERSONAL RESOURCES (INVESTIGATIVE MEMORANDUM
ON MANAGMENT ISSUES G317)
A recent investigation in a district office disclosed that a manager in the office used personal
resources for Commission business, including office furniture and equipment; computer
consulting services performed in the office; and training for office staff.
The manager also connected his personally owned computer to the Commission's network, and
used an office analog line to access his personal Internet account. When we informed the
Associate Executive Director of the Office of Information Technology (OIT), he ordered that the


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                         AP R I L 3 0 , 2 0 0 1
                                                                                         Page           7

manager’s computer be disconnected from the network because it represented a potential
security threat.
We recommended that the Office of General Counsel (OGC) consult with other relevant offices
to determine whether the manager's actions constituted an improper augmentation of
appropriated funds, and to decide on the appropriate disposition of the personal property in the
district office.
Based on OGC's consultations and its own analysis, OGC determined that no improper
augmentation of appropriated funds occurred. However, it indicated (1) that the manager should
acknowledge in writing that the loaned furniture, equipment, and other services procured with
his own funds were rendered gratuitously with no expectation of reimbursement, and (2) the
personal property at issue should be removed prior to, or at the time of, the departure of the
manager from the Commission.
We also recommended that OIT, in consultation with the Office of Administrative and Personnel
Management, issue additional guidance to Commission employees on the use of personal
resources (including computers and Internet Service Provider accounts) in combination with
Commission computer and telecommunication resources. The guidance should cover security
considerations, describe if and when such combinations are allowed, and set forth approval
procedures.


PRINT SHOP SUPPLIES (AUDIT MEMORANDUM M21)
The print shop orders supplies quarterly after receiving a budget allocation. Supplies are kept in
the print shop and in a caged storage area of the parking garage (OAPM plans to install a
security camera for this caged area).
This memorandum made recommendations to improve controls over print shop supplies, based
on a recent incident there. A print shop manager noticed that over half of the toner for the color
copier was missing from the print shop supply room. He estimated its value between $7,000 and
$10,000 on the incident report. In addition, several other items were missing.
We recommended that the Office of Administrative and Personnel Management periodically
change the combination lock on the supply room door, and provide the combination only to
selected employees. We also recommended that OAPM maintain perpetual inventory records of
toner for the color copier, and periodically compare these records to toner on hand to identify
and resolve discrepancies.



                                     Investigative Program
Twelve investigations were closed during the period. Three subjects were referred to the
Commission; one case was referred to the Department of Justice. During the period, two
S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                       AP R I L 3 0 , 2 0 0 1
                                                                                          Page           8

subjects referred during a prior period resigned. Eight subjects, referred to Commission
management during this and prior periods, are awaiting disposition. The most significant cases
closed during the period are described below.

UNAUTHORIZED DISCLOSURE OF NONPUBLIC INFORMATION
The Office investigated an allegation that a Commission employee may have leaked nonpublic
information concerning an ongoing investigation to a member of the press. The evidence
obtained during our investigation failed to substantiate the allegation. We interviewed numerous
staff members who had access to the nonpublic information. All denied making any
unauthorized disclosures of that information. We also learned that the reporter in question had
stated that the source of the information was not a Commission employee.


POST-EMPLOYMENT VIOLATION
The Office developed evidence that a former Commission staff member may have violated a
federal conflict of interest statute by working for a special master in a matter the employee had
worked on while employed by the Commission. We also obtained evidence that the staff
member had continued to work on the matter while still employed by the Commission after
accepting an offer of employment with the special master. The Department of Justice declined
prosecution.




                                      Significant Problems

DISGORGEMENTS
In this reporting period, we completed an audit of disgorgements (Audit No. 311, described
above). We found that improvements could be made to the waiver process to achieve greater
assurance that waivers were justified.
The Division of Enforcement concurred and, during the audit, began taking actions to improve
the waiver process. It has issued written procedures relating to the waiver process, hired a firm to
provide improved databases, and hired a contractor to help evaluate and make recommendations
concerning its procedures. We commend the Division on taking prompt action to strengthen the
controls.
We intend to monitor the Division’s actions to improve the waiver process.



S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                        AP R I L 3 0 , 2 0 0 1
                                                                                         Page           9


              Significant Problems Identified Previously

SENSITIVE INFORMATION
In a previous period, we reported the custody of sensitive information as a significant problem.
Since then, management established a task force to implement corrective actions, issued agency-
wide policy, and hired a security consultant to assist in a more comprehensive review of overall
security.
The Commission has received the consultant’s final report and recommendations. The task force
has identified the most significant recommendations, and the Commission has begun
implementing them. We recently began a follow-up audit on certain controls over sensitive
information.


INFORMATION RESOURCES MANAGEMENT
We previously identified information resources management as a significant problem based on
prior audits, investigative work, and management studies that identified significant weaknesses
in many aspects of the Commission’s management of information resources. Since then, the
Commission has taken many positive steps to improve the management of information resources
throughout the Commission.
Although the Commission has made significant progress in complying with requirements of the
Clinger-Cohen Act, many pending audit recommendations need to be implemented. During this
period, we completed reviews of the Commission’s general computer controls (see above), and
conducted a risk assessment of information resources management. We also initiated a business
process review of the IT capital investment decision-making process.
In future periods, we intend to maintain our oversight of the Commission’s management of
information resources.


COLLECTION OF FILING FEES
Starting in 1996, we have identified the Commission’s collection of filing fees as a significant
problem. Since then statutory changes have eliminated many of the fees most at risk. Moreover,
Commission management has made significant progress in correcting the most serious
weaknesses. However, final corrective actions are awaiting the implementation of a new
computerized filing fee collection system.
The strengthening of automated controls, related to filing fee collection, has been awaiting
modernization of the EDGAR system (which receives and disseminates filings from public

S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                       AP R I L 3 0 , 2 0 0 1
                                                                                         Page 10

companies). EDGAR Release 7.5, scheduled for May 2001, and EDGAR Release 8.0, scheduled
by the end of the fiscal year, are planned to implement a new filing fee collection system. The
new system is designed to contain adequate financial controls. Until then, the overall control
structure continues to fail to provide adequate accountability over filing fees.



                                     Access to Information
The Office of Inspector General has received access to all information required to carry out its
activities. No reports to the Chairman, concerning refusal of such information, were made
during the period.



                                              Other Matters

EXECUTIVE COUNCIL ON INTEGRITY AND EFFICIENCY
The Office actively participates in the activities of the Executive Council on Integrity and
Efficiency (ECIE). The Inspector General attends ECIE meetings, is an active member of its
Financial Institutions Regulatory Committee, and serves as the ECIE member of the Integrity
Committee established by Executive Order No. 12993.
The Counsel to the Inspector General is an active member of the PCIE Council of Counsels. The
Council considers legal issues relevant to the Inspector General community.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                       AP R I L 3 0 , 2 0 0 1
                                                                                          Page 11




                                          Questioned Costs
                                                                             DOLLAR VALUE
                                                                            (IN THOUSANDS)

                                                                    UNSUPPORTED               QUESTIONED
                                                           NUMBER     COSTS                     COSTS
A          For which no management decision has
           been made by the commencement of the
           reporting period                                     0           0                            0

B          Which were issued during the reporting
           period
                                                            0           0                            0

           Subtotals (A+B)                                      0           0                            0

C          For which a management decision was                  0           0                            0
           made during the reporting period

    (i)    Dollar value of disallowed costs                     0           0                            0

    (ii)   Dollar value of costs not disallowed                 0       0                                0

D          For which no management decision has                 0       0                                0
           been made by the end of the period

           Reports for which no management                      0       0                                0
           decision was made within six months of
           issuance




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                        AP R I L 3 0 , 2 0 0 1
                                                                                     Page 12




    Recommendations That Funds Be Put To Better Use
                                                                       DOLLAR VALUE
                                                            NUMBER    (IN THOUSANDS)
A               For which no management decision has
                been made by the commencement of the
                                                                  0              0
                reporting period
B               Which were issued during the reporting
                period
                                                              0              0

                Subtotals (A+B)                                   0              0
C               For which a management decision was               0              0
                made during the period
      (i)       Dollar value of recommendations that were         0              0
                agreed to by management
            -   Based on proposed management action               0              0
            -   Based on proposed legislative action              0              0
      (ii)      Dollar value of recommendations that were         0              0
                not agreed to by management
D               For which no management decision has
                been made by the end of the reporting
                                                                  0              0
                period
                Reports for which no management decision
                was made within six months of issuance
                                                                  0              0




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                  AP R I L 3 0 , 2 0 0 1
                                                                                        Page 13




                Reports with No Management Decisions
         Management decisions have been made on all audit reports issued before the beginning
         of this reporting period (October 1, 2000).



                          Revised Management Decisions
         No management decisions were revised during the period.



    Agreement with Significant Management Decisions
         The Office of Inspector General agrees with all significant management decisions
         regarding audit recommendations.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                      AP R I L 3 0 , 2 0 0 1
